<html>
<title> - FEMALE D.C. CODE FELONS: UNIQUE CHALLENGES IN PRISON AND AT HOME</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





    FEMALE D.C. CODE FELONS: UNIQUE CHALLENGES IN PRISON AND AT HOME

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2010

                               __________

                           Serial No. 111-122

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
  64-926 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         BRIAN P. BILBRAY, California
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
ELIJAH E. CUMMINGS, Maryland         ------ ------
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2010....................................     1
Statement of:
    Lappin, Harley, Federal Bureau of Prisons; Adrienne Poteat, 
      Court Services and Offender Supervision Agency; Nancy 
      LaVigne, Justice Policy Center, the Urban Institute; Ashley 
      McSwain, Our Place; Zandononi Day, ex-offender; and Juanita 
      Bennett, ex-offender.......................................    17
        Bennett, Juanita.........................................    68
        Day, Zandononi...........................................    63
        Lappin, Harley...........................................    17
        LaVigne, Nancy...........................................    39
        McSwain, Ashley..........................................    50
        Poteat, Adrienne.........................................    31
Letters, statements, etc., submitted for the record by:
    Bilbray, Hon. Brian P., a Representative in Congress from the 
      State of California, prepared statement of.................    14
    Day, Zandononi, ex-offender, prepared statement of...........    65
    Lappin, Harley, Federal Bureau of Prisons, prepared statement 
      of.........................................................    19
    LaVigne, Nancy, Justice Policy Center, the Urban Institute, 
      prepared statement of......................................    41
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    McSwain, Ashley, Our Place, prepared statement of............    53
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     7
    Poteat, Adrienne, Court Services and Offender Supervision 
      Agency, prepared statement of..............................    33

 
    FEMALE D.C. CODE FELONS: UNIQUE CHALLENGES IN PRISON AND AT HOME

                              ----------                              


                         TUESDAY, JULY 27, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m. in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Davis, and Bilbray.
    Staff present: Jill Crissman, professional staff; Aisha 
Elkheshin, clerk/legislative assistant; Ian Kapuza and Rohan 
Siddhanti, interns; William Miles, staff director; Dan Zeidman, 
deputy clerk/legislative assistant; Jennifer Safavian, minority 
chief counsel for oversight and investigations; Justin 
LoFranco, minority press assistant and clerk; Howard Denis, 
minority senior counsel; and Mitchell Kominsky, minority 
counsel.
    Mr. Lynch. Good morning. The Subcommittee on Federal 
Workplace, Postal Service, and the District of Columbia will 
now come to order.
    I want to thank Ms. Eleanor Holmes Norton for attending. We 
are waiting for our ranking member. He is in another meeting. I 
understand that, but we will begin with the opening statements 
anyway.
    The purpose of today's hearing is to examine the distinct 
challenges faced by female D.C. Code felons and what is being 
done to ensure their proper progression through the prison 
system, as well as their successful reentry back into society.
    The Chair, the ranking member, and the subcommittee members 
will each have 5 minutes to make opening statements, and all 
Members will have 3 days to submit statements for the record.
    Hearing no objections, so ordered.
    Ladies and gentlemen, let me welcome you to the 
Subcommittee on the Federal Workforce, Postal Service, and the 
District of Columbia oversight hearing entitled, Female D.C. 
Code Felons: Unique Challenges in Prison and at Home. Today's 
hearing gives the subcommittee the opportunity to examine the 
distinct challenges commonly faced by female D.C. Code felons, 
such as regaining custody of their children, maintaining and 
managing complex social relationships, and generally 
reintegrating back into society.
    There are roughly 250 female D.C. Code felons scattered up 
and down the East Coast in various Federal prisons. In terms of 
placement, the Bureau of Prisons generally houses D.C. female 
inmates at facilities in nine States and the District of 
Columbia, with the majority residing in Connecticut, 
Pennsylvania, and West Virginia.
    There are several issues that arise relating to female D.C. 
Code felons. These challenges range from the ease of access to 
Bureau of Prison programs to the difficulty of keeping D.C. 
Code felons connected to their families and community 
resources. While the subcommittee has previously explored some 
of these concerns as they pertain to the D.C. male offenders 
specifically, today's oversight hearing is intended to discuss 
how these issues impact D.C. female offenders.
    Female D.C. Code felons face a myriad of difficult problems 
and different problems than do their male counterparts. For 
one, children play a much larger role in the lives of female 
offenders. Studies have shown incarcerated women exhibit high 
levels of attachment with their children and are more likely 
than men to live with their minor children, both pre- and post-
incarceration. This attachment makes separation from their 
children one of the most damaging aspects of prison life for 
women. Furthermore, the lack of contact can have a profound 
negative effect on these women's emotional and psychological 
state.
    In light of this finding, the Bureau of Prisons, much to 
their credit, has taken steps to alleviate some of these 
drawbacks by offering classes on parenting, managing 
incarceration, and increased communication. However, these 
services are not available at all Bureau of Prisons facilities, 
and certainly not at all facilities where female D.C. Code 
felons are housed.
    After release, poverty plays a large role in many ex-
felons' lives. According to a Bureau of Justice statistics 
report, 37 percent of female felons had incomes of less than 
$600 per month prior to arrest.
    In addition to economic challenges, many female felons 
suffer from physical abuse, sexually transmitted disease, and 
drug abuse; therefore, it is clear that more needs to be done 
to ensure the successful reentry of these women.
    To that end, this hearing seeks to review the ways in which 
the Bureau of Prisons, the court services, and offender 
supervision agencies, various local agencies, and community 
service providers are working collaboratively to address the 
unique needs of female D.C. Code felons, both while imprisoned 
and after release.
    I would like to thank my colleague, Congresswoman Eleanor 
Holmes Norton, for her tireless work in this policy area. The 
subcommittee looks forward to working with you as we continue 
to work with various Federal agencies tasked with the carrying 
out of what is traditionally a local governing function.
    Again, I thank all those in attendance this afternoon, and 
I look forward to hearing the testimony of our witnesses.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. I now yield 5 minutes to Ms. Eleanor Holmes 
Norton for an opening statement.
    Ms. Norton. Thank you, Mr. Chairman.
    I ask that the entirety of my written remarks be included 
in the record, in light of new developments that I would like 
to devote my remarks to.
    Mr. Chairman, your hearings on D.C. felons in the Bureau of 
Prisons have been exemplary for the results they have produced. 
This is a particularly important hearing because it is the 
first hearing since the transfer of D.C. felons to BOP for 
women. They are small in number, but important to focus on.
    Mr. Chairman, your hearings, alone, without additional 
language, have produced very important changes at BOP. For 
example, the District felons now have access to the state-of-
the-art drug program at the Bureau of Prisons. This is a very 
important program, not because it is an excellent program, but 
because it affords early release for those who, in fact, 
complete it satisfactorily. In addition, for example, there is 
a new addition for a drug program at Rivers, the closest of the 
prisons to the District of Columbia.
    Now, the Bureau of Prisons improved conditions for 
prisoners when Lorton closed in many ways, and BOP does 
valuable work and has an excellent reputation. There are real 
advantages to D.C. residents housed there, but there is a very 
serious disadvantage, and that is the distance from home. We 
are talking about 5,600, all told, D.C. Code felons housed in 
115 facilities away from their children and families and 
ministers and everyone who cares for them, with no possibility 
that they can reach them except by phone if they are able to do 
so.
    Now, these 115 facilities are in 33 different States. These 
prisoners are sent, as their number comes up, it would seem, 
without regard to where they are from.
    In States, prisoners are far more likely to be closer to 
home, and therefore to all important reentry services, but if 
you are in Alabama or North Dakota, you are not going to get 
reentry services, even though BOP has important services while 
you are in prison.
    From the point of view of District residents, the 
importance of reentry before our residents who are in prison 
hit the streets has to do with, among other things, recidivism 
and preparation for a life that is no longer subject to prison. 
But most of our inmates have no access to what could be called 
reentry services until they cross the District line, with or 
without housing, having not seen their families sometimes for 
years.
    We have not been able to measure the effect this particular 
distance from home has on recidivism, but nobody in this field 
would say that there would not be a significant effect with no 
reentry services available until post-prison.
    The BOP is a Federal facility. Congress charged the BOP for 
the first time with housing State prisoners. The BOP has done 
well, but with your hearings, Mr. Chairman, we have seen the 
recasting of some of what BOP has done, such as the drug 
program, to accommodate these State prisoners.
    Our greatest challenge now is to make sure this recasting 
goes the whole distance. We have just learned that the BOP has 
responded in a very significant way on two issues. We were very 
concerned, Mr. Chairman, that juveniles convicted as adults 
were sent as far away as North Dakota.
    Now, these are children still, and at age 18 they are going 
into a BOP facility. But these children could be as young as, I 
believe, 14. so to take these children that far from home to as 
distant a State as you can find, with no access to their 
parents, loved ones, or anyone else, is almost to presage what 
is going to occur to children hardened so early.
    We make no excuses for the terrible crimes they have 
committed, but we don't need to commit a crime against them in 
return by not treating them as children in at least some ways 
while they are still children.
    I want to commend Director Lappin and I guess it is Mr. 
Brown of the D.C. Department of Corrections for a memorandum of 
understanding that will keep youth who have been convicted as 
adults in the District jail until these young people are ready 
to go to the Bureau of Prisons. This is a very important 
change, and I want to personally thank Mr. Lappin even before 
his testimony for his movement in this direction. Some of this 
was discussed at our last hearing. It is a very important 
result.
    In addition, Mr. Chairman, we have learned that the Bureau 
will transfer the first 200 D.C. felons to the custody of the 
D.C. Department of Corrections 90 days before the expiration of 
their sentences will send them home in order to allow them to 
have access to reentry services. I cannot thank the director 
enough for this change.
    What this means is that these D.C. residents will have 
access to D.C. jail services, which are quite extensive. They 
include educational programs leading through the GED. Of 
course, we have that at BOP. There is a drug rehabilitation and 
residential substance abuse program there. There is HIV 
counseling and treatment. There is comprehensive medical 
services.
    Using a community model in the jail, there is a reentry 
unit, a special unit called LINK. There is a job readiness 
program. There is a permanent housing program that is a 
connected with the university legal services and fuse projects. 
There is a mental health program in conjunction with the 
Department of Mental Health of the District of Columbia. There 
is a trans-gender program, and there is a juvenile program.
    Mr. Chairman, I do want to say that the D.C. jail, I have 
always indicated that I thought that the BOP was a particularly 
excellent facility. I want to indicate that the D.C. jail also 
is. The D.C. jail is accredited by the American Correctional 
Association, the National Commission on Correctional Health 
Care. It has the largest number of correctional officers who 
hold the credential of the ACA professional certification 
program. The D.C. jail has received the exemplary program award 
of the ACA in 2009 and 2008.
    So I think what we will have is our residents who are now 
at BOP transferred from one excellent facility to another 90 
days before their true reentry so that they can reenter civil 
society and the District of Columbia prepared to move forward 
in a new life.
    I thank you very much, Mr. Chairman. I thank the BOP in 
advance. And, of course, I thank the D.C. jail for its 
cooperation.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Lynch. I thank the gentlelady.
    The Chair recognizes the distinguished gentleman from 
Illinois, Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Let me first of all thank Representative Norton for 
introducing this legislation. While it is specific to the 
District of Columbia, it really has implications for the 
entirety of America. So while we might be talking about the 
District of Columbia, the policies and practices relate in a 
big way to the entire country.
    I also want to commend Director Lappin for his 
sensitivities as we continue to approach changing environments, 
changing needs, changing problems, and the reality that this is 
much more of a problem and an issue than it might have been a 
decade ago or 20 years ago, and so change is absolutely needed.
    I also want to commend you, Mr. Chairman, for holding this 
hearing and for the hearings that you have held prior to now. 
Many people know that I consider the whole question of criminal 
justice and how we handle it as one of the major problems 
facing all of America, but especially urban America, and 
especially African American communities where you find the 
greatest preponderance of individuals who end up being 
incarcerated.
    I think that the specifics of looking at female entry and, 
of course, we know that African American women happen to be the 
fastest-growing part of the prison population in America. We 
also know that, notwithstanding the fact that the overall 
African American population in the country is probably about 15 
percent, but more than 50 percent of all of the individuals who 
are incarcerated in America are African Americans. And we know 
that African American males are off the chart.
    So the issues that get raised in this kind of hearing 
don't, as I indicated, just relate in a real sense to the 
District of Columbia. The questions that I get from people all 
the time happen to deal with the issue of how far away their 
relatives are. While you wouldn't be as far away in a State----
    Ms. Norton. At least in the State.
    Mr. Davis. But that is a question I must get every week, at 
least 20, 30 people who want to know if there is some way that 
they can get their relatives closer to home for any number of 
reasons.
    So I think that as we remove some of the barriers to 
reentry--and this is the very important part--if we are going 
to reduce the overall prison population, we are going to have 
to reduce the rate of recidivism, and the more barriers that we 
can reduce that prevent people from having successful reentry 
experiences, the more impact we have on our overall system.
    Again I want to thank you for your legislation. I want to 
thank the chairman for holding this hearing. And my 
commendations to not only Mr. Lappin, but I see there are other 
members of the panel that we have had before us, and I want to 
commend you for the work that you are doing.
    I yield back.
    Mr. Lynch. I thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Bilbray, for 5 minutes.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, I ask for unanimous consent to introduce into 
the record my written statement.
    Mr. Lynch. Without objection, so ordered.
    Mr. Bilbray. Thank you, Mr. Chairman.
    I appreciate being here. Mr. Chairman, you know, we 
sometimes talk about the unique opportunity we have with our 
representative form of government, and I think we grossly 
under-estimate how much of a contribution our diverse 
backgrounds in Congress and any type of representative 
government brings to it, not just situations of our past 
professional experience.
    I mean, I operated a detention facility for a county of 
three million people. A lot of experience there. The flip side 
was my staff, when I was chairman of the county, always pointed 
out that every time I visited the detention facilities I knew 
half the people running the place and half of them that were in 
there.
    But coming from a working class background, it does bring 
experience that a lot of our more affluent friends may not get, 
have not learned. When I look at this item, it really strikes 
home in a lot of ways.
    Mr. Chairman, I have to apologize. I just came back from my 
40th reunion, high school reunion. Going through the years of 
watching my colleagues that I went to school with and how they 
went into the criminal justice system and how many got in 
trouble right out of school, if not even while they were in 
school, frankly, I have to tell you, over the years I was very 
pessimistic about the entire concept that once you are in the 
system can you ever get out.
    But I would just like to add an optimistic note here. At a 
ripe old age, ready to face 60 years old, and watching my 
colleagues who were in and out of the system for years, I am 
very impressed with how many people that I thought would never 
get out of the system are successful, independent, family 
based. So I am much more optimistic at this age than I was at a 
younger age.
    I guess, as Bob Dylan once said, that was so much longer 
ago, I was so much older then. I have to say that I hope, 
especially those of us who have been challenged, gifted with 
the tougher times in our neighborhoods than some people have, 
that we try to take that experience and be practical about it. 
I think the biggest thing that comes out is the ability to 
separate yourself from those elements in your past that have 
helped lead you astray.
    But also that economic independence, that a good job, a 
feeling of success and economic opportunity brings, and 
hopefully working at helping people out of the spiraling 
problem of always being pulled back into the same negative 
components of our community and moving toward a positive, 
because I just tell you there are more individuals I see that I 
thought would never get out of an institution who are actually 
educating, coaching, involved. Some of them are very 
successful, even during these tough times of unemployment, 
helping friends that have never known unemployment actually 
know how to handle it.
    I think that hopefully we will be able to learn from the 
panel today about how D.C. is addressing this issue, how the 
Nation's capital, with all its great challenges, is addressing 
this, especially when it comes to a population that we ignore 
for too much, and that is girls and ladies and women are in the 
system too, but they do not get the attention that we give the 
male counterparts. Hopefully, this hearing will help us to 
avoid that problem in the future.
    I yield back.
    [The prepared statement of Hon. Brian P. Bilbray follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. I thank the gentleman.
    I also want to thank the members of the panel for coming 
before this committee and helping us with our work.
    It is the custom of this committee to ask all witnesses who 
are to offer testimony to be sworn. May I ask you to please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Thank you. Let the record show that all of the 
witnesses have answered in the affirmative.
    I am going to actually read a brief introduction of each of 
our witnesses.
    Mr. Harley Lappin has served as Director for the Federal 
Bureau of Prisons since April 4, 2003. A career public 
administrator in the Federal Bureau of Prisons, Mr. Lappin is 
responsible for the oversight and management of the Bureau's 
115 institutions, and for the safety and security of more than 
210,000 inmates under the agency's jurisdiction.
    Ms. Adrienne Poteat serves as the agency head of the Court 
Services and Offender Supervision Agency [CSOSA], for the 
District of Columbia. In this position, Ms. Poteat oversees a 
Federal agency of nearly 1,300 employees which was created by 
the D.C. Revitalization Act of 1997 to improve public safety 
through active community monitoring and supervision of ex-
offenders.
    Ms. Nancy LaVigne is the current director of the Justice 
Policy Center at the Urban Institute. Ms. LaVigne is an expert 
on crime prevention and prisoner reentry and is the founding 
Director of the U.S. Department of Justice's mapping and 
analysis for public safety program.
    Ms. Ashley McSwain is currently the executive director of 
Our Place D.C. She holds a master of social work from Temple 
University and a master of organizational development from 
American University National Training Laboratories program. She 
has worked in the human services field for over 20 years.
    Ms. Zandononi Day is an ex-offender and has served her time 
fully. She is currently employed by Liberty Tax Service located 
in Temple Hills, MD. Liberty Tax Service is an income tax prep 
service with multiple locations throughout the State of 
Maryland.
    Ms. Juanita Bennett is an ex-offender. She is currently 
under supervised release and is unemployed. She has served her 
time fully and is currently volunteering at Our Place D.C. Our 
Place is considering her for employment.
    Welcome all. To some, Mr. Lappin, Ms. Poteat, and Ms. 
LaVigne, welcome back. I think you have testified at least a 
couple of times before this committee, and we appreciate your 
involvement.
    Now we are going to have opening statements from the panel. 
To begin, Mr. Lappin, you are now recognized for 5 minutes for 
an opening statement.

    STATEMENTS OF HARLEY LAPPIN, FEDERAL BUREAU OF PRISONS; 
   ADRIENNE POTEAT, COURT SERVICES AND OFFENDER SUPERVISION 
   AGENCY; NANCY LA VIGNE, JUSTICE POLICY CENTER, THE URBAN 
    INSTITUTE; ASHLEY MCSWAIN, OUR PLACE; ZANDONONI DAY, EX-
           OFFENDER; AND JUANITA BENNETT, EX-OFFENDER

                   STATEMENT OF HARLEY LAPPIN

    Mr. Lappin. Good morning, Chairman Lynch and members of the 
subcommittee. I appreciate the opportunity to appear before you 
to discuss programming and reentry for female D.C. offenders in 
the custody of the Bureau of Prisons.
    Before I get into my comments, let me just thank all of 
you. There is nothing prison administrators like more than 
people like you in leadership positions taking such an interest 
in reentry. Believe you me, it is long overdue.
    It was about 5 or 6 years ago that many of you took such an 
interest, and, believe you me, we are feeling the impact, 
because at the end of the day, as we release 42,000 inmates a 
year back into our communities, there is nothing that satisfies 
us more than to see fewer of them coming back to prison, living 
normal lives, taking care of their family, have a job, and pay 
taxes just like the rest of us.
    So, again, we appreciate your support of this important 
issue.
    The Bureau of Prisons is responsible for the incarceration 
of almost 14,000 female offenders. Approximately 220 of these 
are female D.C. Code offenders. While the number of D.C. Code 
offenders is quite small compared to our entire population, we 
remain mindful of our unique role in the District of Columbia, 
and we devote substantial resources to meet the needs of these 
offenders.
    Female offenders, as you referenced, Mr. Chairman, present 
different challenges than their male counterparts. They have 
higher rates of mental disorders and higher rates of drug and 
alcohol use. Histories of physical and sexual abuse and trauma 
are quite prevalent.
    Finally, female offenders are often single parents. In such 
cases, their incarceration means that their minor children are 
left to be raised by extended family members or foster 
families. Those caring for the children may lack the resources 
or ability to visit the incarcerated mother on a regular basis.
    We have 28 facilities that house female offenders. Of 
these, eight are Bureau of Prisons facilities that house D.C. 
female offenders. We also house D.C. female offenders in the 
D.C. jail, Fairview Residential Reentry Center, and the 
Maryland Department of Corrections.
    Crowding in the Federal prisons across the country has had 
a profound impact on our inmate designation process. We have 
experienced significant increases in inmate population over the 
last two decades. The Bureau of Prisons is currently operating 
37 percent over rated capacity system-wide, with our secure 
female facilities operating at 52 percent over capacity.
    We remain committed to the goal of housing the majority of 
the female D.C. Code offenders within 500 miles of the 
District, and we have been quite successful in meeting this 
goal.
    Currently, almost 82 percent of the female D.C. Code 
offenders are confined in institutions within 250 miles of the 
District, primarily at FDC Philadelphia, PA; the secure female 
facility in Hazelton, WV; the Federal prison camp in Alderson, 
WV; the Federal correctional institution in Danbury, CT.
    Inmates with significant medical needs requiring 
hospitalization are housed at our only Federal medical center 
for females in Carswell, Texas. While this facility provides 
state-of-the-art care for our seriously ill female offenders, 
it is over 1,200 miles from the District of Columbia.
    We offer many programs for our female offenders, including 
prison industries and other institution jobs, education, 
vocational training, substance abuse treatment, observance of 
faith and religion, psychological services, counseling, release 
preparation, and other programs that impact essential life 
skills. We also provide structured activities designed to teach 
inmates productive ways to use their time.
    Regarding specific female offender needs, we have enhanced 
staffing of our psychology services programs at our female 
institutions to meet the increased needs of the mental health 
services for female offenders. At 11 Bureau of Prisons 
facilities we offer the resolve program, a cognitive behavior 
workshop and treatment program to address trauma related mental 
health needs for female offenders.
    Our Mothers and Infants Nurturing Together program is a 
residential program for pregnant females that provides 
parenting skills and prenatal care, followed by a bonding 
period for the mother and infant. The program is available at 
seven sites, including West Virginia and Connecticut.
    Mindful of our role as the State Department of Corrections 
for the District, we emphasize specialized programming and 
opportunities for D.C. offenders that will help facilitate 
their successful reentry. In addition to our ongoing reentry 
programming, we have engaged in a fruitful partnership with Our 
Place D.C. to assist female D.C. offenders to successfully 
transition back to the District. Our Place collaborates with 
BOP and FDC Philadelphia, the female facility in Hazelton, and 
the Fairview residential reentry center where our female D.C. 
Code offenders transition through the residential reentry 
center program.
    Finally, we continue to collaborate with Court Services and 
Offender Supervision Agency on transitional issues.
    Chairman Lynch, again, it is my pleasure to be here. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Lappin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. Thank you, Mr. Lappin.
    Before we continue with the testimony, I have just been 
called to a second hearing on financial services where I have 
an amendment pending, so in my absence Ms. Eleanor Holmes 
Norton will preside. She has been intimately involved with this 
and will probably do a much better job than I would have, 
anyway.
    Ms. Poteat, you are now welcome to take 5 minutes for an 
opening statement.

                  STATEMENT OF ADRIENNE POTEAT

    Ms. Poteat. Chairman Lynch, ranking member of the 
subcommittee, thank you for the opportunity to appear today to 
discuss the Court Services and Offender Supervision Agency's 
role in facilitating the successful reentry and community re-
integration of the District of Columbia women returning home 
from prison.
    On any given day, CSOSA supervises 16,000 offenders, of 
which 15 percent, or approximately 2,400, are female. Of those 
women, nearly 500 return to the community after serving a 
period of incarceration. The remaining 1,900 are probationers. 
Between 2006 and 2009 CSOSA experienced an 18 percent increase 
in the number of women with post-release supervision 
obligations. Over the same period, the number with post-release 
obligations increased by just 7 percent. Of the 2,324 D.C. Code 
felons who returned home from prison in 2009, 222, or 9\1/2\ 
percent, were women.
    The challenges faced by women on community supervision are 
often exacerbated by history of physical, sexual, and mental 
abuse. Approximately 32 percent report having been victimized 
as a child, 25 percent report victimization as an adult. Nearly 
8 percent report having either lived on the streets, in a 
shelter, or in transitional living facility during the most 
recent 6-month period, and about 30 percent report having a 
current housing arrangement that is considered unstable or 
temporary.
    Additionally, 45 percent do not have a diploma or GED. More 
than 70 percent are unemployed on any given day. And more than 
40 percent have a dependent child. Nearly half of the women 
report having been diagnosed with and/or treated for a mental 
health disorder, and 82 percent self-report illicit drug use.
    CSOSA's supervision and treatment interventions are 
employed based on a proven best practice and on the unique 
needs of the individual offender. All CSOSA offenders undergo 
an extensive screening to identify their risk profile and their 
specific needs. Offenders are assigned to special mental 
health, domestic violence, sex offender, high-risk, substance 
abuse, or traffic/alcohol teams as appropriate. Our offenders 
receive a continuum of substance abuse treatment from detox to 
residential treatment, as well as a wide range of other support 
services.
    Our gender-specific programming and our plans for the entry 
and sanction center will be addressed alter in my testimony.
    CSOSA also works closely with the Department of 
Corrections' residential substance abuse treatment program, 
RSAT. We began this effort in October 2009, targeting 18 female 
offenders in their initial 90-day assessment and treatment 
readiness program. At the correctional treatment facility we 
monitor RSAT female offenders' progress and the prescribed 
community based treatment modality and provide additional 
treatment and sanctions interventions to support availability 
upon DOC resources.
    Last year we partnered with Our Place D.C. on a reentry 
demonstration project to provide comprehensive pre-release 
planning to women returning to the District of Columbia. To 
date, 16 women from Hazelton and 26 women from FDC Philadelphia 
who are going to be under CSOSA's supervision have expressed an 
interest in participating in this program. On June 28th we 
conducted our first videoconference with Hazelton. In August we 
will have a videoconference with Philadelphia and followup with 
Hazelton.
    In this fall, in response to the growing population of 
females with co-occurring substance abuse and mental health 
issues, we expect to expand the scope of our women's 
programming with four major initiatives. The first, we will be 
opening a 115-bed floor on the reentry and sanction center for 
female offenders. The RSC provides high-risk offenders with a 
comprehensive clinical assessment and treatment readiness 
program.
    At capacity the RSC can serve up to 180 women per year. 
Women will complete the 28-day program and have an 
individualized, long-term treatment plan that they can agree to 
complete. Many of the women will report to the RSC immediately 
following their release from prison. In addition, women who 
begin testing positive for drugs and who meet the program's 
eligibility criteria may be assigned to the RSC as a 
supervision sanction.
    The second initiative will be the reorganization of our 
mental health branch to establish two women-only supervision 
teams.
    As our third initiative, we will launch day reporting 
center exclusively for women. The women's day reporting center 
will provide a productive alternative to idle time for our 
unemployed female offenders.
    Finally, we are expanding our women in control, a program 
for women suffering from substance abuse and mental illness. 
This cycle educational and therapeutic thus far has served 91 
women in fiscal year 2009. The expanded program will target 
high-risk female offenders who have at least 6 months remaining 
under supervision and who are at risk for violent weapons, sex, 
or drug charges.
    We are excited about the potential of these four 
initiatives to improve the reentry experience and support the 
successful supervision of our female population.
    This concludes my testimony. I thank you for the 
opportunity to appear before you today and am prepared to 
answer any questions that you may have.
    [The prepared statement of Ms. Poteat follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton [presiding]. Thank you very much, Ms. Poteat.
    The next witness is Nancy LaVigne of the Justice Policy 
Center at the Urban Institute.

                   STATEMENT OF NANCY LAVIGNE

    Ms. LaVigne. Thank you, Representative Norton.
    I appreciate the opportunity to speak today about the 
incarceration and release of female D.C. Code felons.
    As you know, the Urban Institute has conducted extensive 
research on the topic of prisoner reentry, and perhaps our 
largest study is called, Returning Home: Understanding the 
Challenges of Prisoner Reentry. It is a longitudinal study of 
prisoner reentry and includes both men and women who are 
navigating the challenges of returning to their homes and 
communities. For that reason, we are able to discuss in detail 
the differences in experiences between men and women who are 
reentering society.
    So what do we know about women reentering society? Well, 
each woman's story is unique. The broad brush strokes, however, 
are quite similar in that women are typically incarcerated for 
property or drug possession offenses, and they are likely to 
have long-term substance abuse histories. In Maryland, in fact, 
half of the women we interviewed reported daily heroin use in 
the 6-months leading up to their most recent incarceration, 
this compared to about a third of the men we interviewed.
    In terms of supporting themselves financially, women are 
much less likely to have been legally employed prior to their 
incarceration, they are less likely to receive job training or 
have gained vocational skills while behind bars, and they are 
less likely to participate in job placement services, and 
ultimately to be legally employed after their release.
    This employment hurdle may explain why women exiting prison 
report more difficulties meeting their day-to-day financial 
needs, are almost twice as likely to report earning income 
through illegal means, and are much more likely to rely on 
public assistance as a source of income than are men.
    Even among women who are able to find jobs, they earn, on 
average, $1.50 less per hour than their employed male 
counterparts.
    Lack of employment opportunities may also explain why women 
are more likely to report difficulties in paying for housing. 
These difficulties lead to higher rates of residential 
mobility, with women more likely than men to have lived in more 
than one place since their release. They are also more likely 
to report difficulty in finding housing due to their criminal 
records.
    The unique obstacles that women face during their 
reintegration contribute to their subsequent criminal behavior. 
In the study we did in Texas, we found that women we almost 
twice as likely as men to be back behind bars in a year's time.
    Now the data I have presented so far paints a pretty grim 
picture for women's prospects of successful reintegration and 
rehabilitation, but, while the challenges are great, the 
opportunities exist that are often overlooked for this 
population, and chief among those is the important role that 
family support can play in successful reentry.
    Our reentry studies have found that families can favorably 
influence the reentry process, with higher levels of family 
support linked to higher employment rates and reduced 
recidivism following release. Fortunately, women report roughly 
the same degree of family support as men, although they are 
more likely to rely on children as that source of support than 
are men, who typically rely on mothers, aunts, grandmothers, 
and so forth.
    Indeed, incarcerated women's relationships with their 
children represent the single greatest difference between them 
and their male counterparts. When we interviewed men and women 
behind bars prior to their release, we asked an open-ended 
question.
    We said, what are you most looking forward to after your 
release? The differences between male and female respondents 
were pretty stunning. What men said, the top answer was tied 
between calling my own shots and pizza, and I am not kidding, 
while the overwhelming majority of women responded, reuniting 
with my children.
    Clearly, women's ties to their children can serve as an 
incentive to refrain from substance abuse and criminal 
behavior, but these ties to their children and their support 
from family are closely linked to the type of contact they have 
behind bars.
    Representative Norton, as you correctly noted in your 
opening remarks, there is no definitive research that links 
distance from prison to recidivism, but there is research that 
links contact with family members behind bars to reintegration 
outcomes.
    So the question here is: are incarcerated D.C. female 
felons able to have contact with their family members? And I 
was encouraged to hear that the numbers of women who are 
incarcerated close to D.C. has increased over time, and yet it 
sounds like as many as one in five are still incarcerated as 
far away as Texas. It stands to reason that the farther away 
these prisoners are housed from their homes, the less contact 
they will have with family.
    I therefore encourage members of this subcommittee to 
continue your efforts to ensure that female D.C. Code violators 
are housed in prisons close to their homes. Doing so will 
enhance the ability of incarcerated mothers to maintain contact 
with their children, which research indicates is a critical 
factor in successful reintegration.
    Doing so will also aid women in connecting to the 
community-based substance abuse treatment and mental health 
services that they so critically need to successfully 
reintegrate. In the meantime, efforts to connect prisoners to 
post-release service providers through videoconferencing should 
be supported and expanded to include communications with family 
members.
    Thank you for your time. I welcome any questions you may 
have.
    [The prepared statement of Ms. LaVigne follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you very much, Ms. LaVigne.
    We will next hear from Ashley McSwain, who is the executive 
director of Our Place here in D.C.
    Ms. McSwain.

                  STATEMENT OF ASHLEY MCSWAIN

    Ms. McSwain. Ms. Norton and members of the subcommittee, I 
am honored by this invitation to appear before you to discuss 
the issues facing female offenders as they transition back into 
the D.C. community after incarceration.
    I would like to begin with a story about one of our 
clients. After almost 1 year in custody, one of our female 
clients--let's call her Hope--heard an Our Place presentation 
in the Federal detention center in Philadelphia. Upon her 
release she visited Our Place and found guidance, support, and 
friendship void of the judgment she expected. She got a resume 
and e-mail address, clothes, suits for interviewing, and legal 
advice to get her driver's license reinstated, which had been 
suspended while she was in custody because she was not notified 
of the hearing.
    Hope now works for Our Place and serves in a vital role and 
feels that her dignity and self-esteem has been restored.
    Our clients represent the breadth of challenges that women 
face as they reenter society from prison. They have a host of 
unique medical, psychological, and financial problems and needs 
that distinguish them from male offenders. And while male 
offenders experience some of the same problems, several factors 
set the needs of female offenders apart. Many have histories of 
substance and sexual abuse, and over half have been victims of 
domestic violence. This all creates a unique challenge for the 
female offender.
    When a woman is sent to prison, the entire family structure 
is impacted differently than when a man is sent. It is said 
that when a man goes to prison he loses his freedom, but when a 
woman goes to prison she loses her children. While women are 
incarcerated, their families suffer, children are sent to live 
with relatives or friends or placed in foster homes, sometimes 
separated from their siblings.
    Additionally, because D.C. Code felons are forced to serve 
their sentences far away from home, family units and the female 
offender is further burdened. Many of the women we serve tell 
us that Our Place is the only connection they have to the D.C. 
community since their family members did not have the funds or 
the transportation to visit them while in custody.
    Our Place began offering services in 1999 upon hearings 
women's stories of incarceration and their struggles to 
reestablish themselves in the community upon their release. 
Since opening its doors, Our Place has served over 7,000 D.C. 
women, but over the last 2 years we have seen a 30 percent 
increase in females that visit our programs for services. 
Currently, an average of 90 women walk into the doors every 
single week. Of our staff, 66 percent has been formerly 
incarcerated, which brings a perspective that keeps us informed 
of the needs and experiences of the women we serve. The success 
stories of our staff members become a testament to what is 
possible for our clients.
    Our primary service is the drop-in center, where women can 
visit us directly from prison to begin to gain direction for 
their next steps after their release. We provide funding for 
birth certificates, police clearances, tokens, and 
identification. We also have a clothing boutique, drinks and 
snacks, computer, faxes, copy machines, and other 
administrative support.
    Our services also include a legal education and support, 
including direct representation, employment and education, HIV/
AIDS prevention and onsite testing, condom distribution. Our 
case managers sit in on team meetings with the Bureau of 
Prisons, the female inmate, and various BOP staff. This is 
unprecedented, and further allows us to fully understand what 
the offender will need when she is released upon her release.
    We also recently began videoconferencing with women in 
custody in collaboration with CSOSA. We offer transitional 
housing for women living with AIDS. We work closely with the 
local jail and a variety of Federal prisons, specifically 
Hazelton, FDC Philadelphia, and Alderson. We run a family 
transportation program to take family members to Danbury and 
Hazelton each and every month so the children and loved ones 
can visit their family members. We offer a scholarship program 
that helps children pay for their training while in custody and 
after their release. This program is also extended to their 
children. And we also accept collect calls from the women who 
are in custody.
    A felony conviction comes with shame and stigma that can be 
difficult to manage alone. Offering a comprehensive team of 
wrap-around support can be the difference between success and 
re-offending. At Our Place we create a sense of community and 
connectedness. Additionally, the sheer volume of relationships 
that female offenders need to maintain can overwhelm women, 
marking the beginning of their path to recidivism.
    For example, most women must work with a drug treatment 
counselor, attend NA or AA meetings, work with a mental health 
counselor, medical doctor, family counselor, probation officer, 
housing counselor, welfare counselor, employment counselor, 
academic instructor, children, family members, husbands, 
boyfriends, and many more, all at the same time. We help the 
women put their obligations and needs into perspective.
    We are fortunate that Our Place is granted unprecedented 
access to the women while inside the prisons so that when they 
return home they will have a plan that can be implemented as 
they relearn the community they have been away from, sometimes 
for decades.
    We are sincerely grateful to the Bureau of Prisons and our 
many other partners for their commitment to assisting these 
women during their transition home.
    The work being conducted at Our Place offers a unique 
opportunity to develop a model of service delivery for female 
offenders all over the country. Every women being released from 
prison needs supports as she reenters the community. They are 
great organizations doing effective work; yet, they struggle 
every single month to make payroll to support their efforts.
    Given adequate funding, can impact the needs of many more 
individuals who sincerely want to make change within their 
lives. Today, Hope is building a stable future for herself and 
her family and serves as a role model for many women who enter 
the doors of Our Place. She is lighting the torch for all women 
who come behind her. Let us give every D.C. woman the same 
support and opportunity that Hope had.
    Thank you very much for the opportunity to share our story.
    [The prepared statement of Ms. McSwain follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you very much, Ms. McSwain.
    The next witness is Zandononi Day.
    Ms. Day, we are glad to receive your testimony.

                   STATEMENT OF ZANDONONI DAY

    Ms. Day. Good morning, Chairman Norton.
    I am really, really nervous. I was OK until Ms. Tindel 
called me yesterday. Anyway, my name is Zandononi Day.
    Ms. Norton. Ms. Day, you have no reason to be nervous.
    Ms. Day. I am. My hands are sweating really, really bad.
    My name is Zandononi Day. I am a 47-year-old mother of 
three adult children who had been a convicted felon since 1986. 
These challenges and obstacles I have been facing for years. I 
am just one of those kind of people that like to put people to 
the test. If you tell me you are going to do something, then I 
want to know that you are going to do it.
    My last conviction was August 2007. I was convicted of 
distribution of cocaine. I was housed at SFF Hazelton from 
April 21, 2008, where I was released in June, where I entered 
the halfway house, Fairview halfway house, from June 30th to 
September 15, 2009.
    I have employable skills. Unfortunately, my CDL expired 
while I was incarcerated and I didn't have the funds to get 
one, so I requested that the halfway house give me a referral 
to D.C. Our Place. Our Place came to Hazelton very, very often, 
and it made--I actually just wanted to put them to the test, 
for real.
    Being incarcerated was really, really stressful for me. My 
mom is disabled. I got a daughter that is in the Air Force, and 
I had two sons, and nobody had transportation to come see me. 
Well, Our Place made that less stressful because they provided 
transportation, so I was able to see my family. I was glad to 
be close to home, opposed to being sent far away.
    Our Place helped me. Even though my children are grown, 
please don't think that we don't go through the reunification 
process, because we do. You know, we fight harder to be 
reunified with our kids because they can make their own 
decisions, because they can choose whether they want to deal 
with us or not, and my kids were willing to do whatever it took 
to get back in with me.
    Our Place helped me with the reunification process. Even 
though my kids are grown, it was harder to reunify with them 
than it is to reunify with smaller kids, because they could 
make their own decisions, because they could decide whether 
they wanted to deal with me or not. I went through a whole lot 
of ups and downs, didn't know what I wanted to do, and Our 
Place provided that support for me.
    After being released from Fairview, I went to a training 
program because I needed to get skills that I could get 
employment back into the administrative field. I needed to go 
through a training program. I went to Our Place and I got my 
resume done and I sat with the employment counselor and they 
helped me find a training program. They helped me with clothing 
and getting identifications and everything that I needed for 
training.
    While incarcerated, I got training through Our Place. I got 
certified with HIV and AIDS education where I can actually 
teach HIV and AIDS education.
    Not only did I receive service from Our Place, I also 
received services from a whole lot of community organizations. 
I went through DOE. That is where I got my training from. I got 
services from Suited for Change and Dress for Success. But I 
wouldn't have been able to get those services had it not been 
for the referrals from D.C. Our Place. They actually did not 
judge me.
    Like I said before, my crimes ranged from distribution of 
drugs to simple assault to taking property without a right, so 
I have a long criminal history. I just made the decision that I 
needed to do something about it. I take full responsibility for 
everything that I did, and when I walked into Our Place doors I 
didn't walk into it blindly, I walked into it with an 
organization that said that they would help me. I applied for 
two scholarships and got it. Then I got a computer, thanks to 
D.C. Our Place. I was able to take my P & C class, thanks to 
Our Place.
    Not only do I work for Liberty Tax, actually, I am a 
supervisor for Liberty Tax now. I also am an office manager for 
the Herberta J. Jones Insurance Agency. Without getting a 
scholarship from Our Place, I would not have been able to get 
my position because I needed that P & C course, property and 
casualty insurance, so I am also licensed to sell insurance 
now. But I still can't be appointed with Nationwide or State 
Farm because of my criminal background. I don't have no crimes 
against insurance companies. I don't have any crimes against 
banks, but I can't be employed because I am a convicted felon.
    To sum this up real nicely, I have had the opportunity of 
working with the entire staff of D.C. Our Place, from the 
executive director to the receptionist. Everybody at Our Place 
knows me. They provide a great service, both inside and 
outside. I think mainly because I am the kind of person that 
don't trust a lot, I actually always put people to the test. 
Our Place did not fail me. They actually gave me everything I 
need, and they still support me to this day.
    [The prepared statement of Ms. Day follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you, Ms. Day. See, you had no reason to 
be nervous, did you? That flowed very easily.
    The final witness is Juanita Bennett, who also has been 
incarcerated. We are pleased to welcome you.

                  STATEMENT OF JUANITA BENNETT

    Ms. Bennett. I want to thank everybody here today. My name 
is Juanita Bennett. I was born in Washington, DC. I have one 
daughter, age of 29.
    I was sentenced for distribution of cocaine. I served 96 
months, which is 8 years. I was sentenced May 2004. I served 
most of my time at Coleman Camp. That is where I went at. They 
said when I got there that I was only housed out there to do 
straight fair time because I was under the D.C. Code, which I 
wasn't too much familiar with the D.C. Code, and that I didn't 
reap any benefits being out there to do the drug program and 
everything until I was transferred to Tallahassee, because I 
still requested the treatment program. When I got there, Dr. 
Marcellas told me that he never heard of a D.C. Code, and he 
wrote the Justice Department, and they signed it back saying 
that I was eligible for the time off. This was in 2007.
    After that, I was released and I went to the halfway house, 
where I was at currently, where they allowed me to keep 
structure in my life and had access to go different places and 
had the opportunity to go to Our Place so that I could get my 
credentials, police clearance, vital records, and everything. 
By being there, the ladies were very open, you know, very 
concerned.
    All the staff is beautiful there at Our Place. They make 
you feel like you are somebody, you know? They make you feel 
human. So I enjoyed it, just being there. And when I had the 
opportunity to volunteer and come back, it felt like I was just 
giving something back and helping the ladies by volunteering.
    And after leaving the halfway house I went to KA. That is a 
transitional for women and treatment program where I was 
referred by my CSOSA, and that is where I am at now.
    I don't have a lot because I was just, like I said, this 
was my first experience, and I really made up in my mind that I 
had to make a better choice for my life, because I am not 
getting any younger. I am getting older. I have a daughter who, 
like I said, is in the Air Force, and she is very proud of me 
for making this step in my life and as far as changing myself 
around. So as far as the choices and as far as being under the 
D.C. Code, I think we should provide more housing, job 
opportunity, training, mentors, and means of transportation. 
That is the only thing I see as far as D.C. felons need for 
females, need more of, as far as their needs to be met.
    Thank you.
    Ms. Norton. Thank you, Ms. Bennett, for that helpful 
testimony.
    Ms. Bennett. I am a little nervous, too, because I was 
excited because I didn't know what to expect and I didn't want 
to overdo it.
    Ms. Norton. This is not a jail, this is just a Congress.
    Ms. Bennett. I know.
    Mr. Bilbray. We only bite the heads off of executives. 
Don't worry about it.
    Ms. Bennett. OK. [Laughter.]
    Ms. Norton. Mr. Lappin, that does not include you.
    I do want to start with a question for Mr. Lappin. Are D.C. 
Code felons who receive sentences of 180 days or less typically 
housed at the D.C. jail?
    Mr. Lappin. The memorandum of understanding that you 
referenced will allow that. In fact, I think there are 65 or 70 
currently at the jail. That includes some men and some women. I 
think right now the group is 90 days or less, but it does go to 
180 days, and we are working through that. So my guess is the 
majority of the offenders who are serving 180 days or less or 
thereabouts, contingent upon bed space being available, will be 
housed at the jail.
    This is noteworthy, because previously being transferred to 
a Federal prison, by the time they got to the Federal prison it 
was almost time to transfer them back.
    Ms. Norton. Yes.
    Mr. Lappin. Which is commonplace. Many of the urban jails 
around the country we have this relationship, so we are 
thrilled that we are able to accommodate them at this jail such 
that, while they are there, they can receive services, as well 
as begin to work with the staff from CSOSA.
    Ms. Norton. It is an excellent change. Now, was D.C. 
reimbursed before the MOU for the cost of these prisoners being 
housed in the D.C. jail?
    Mr. Lappin. Yes. The MOU includes a reimbursement.
    Ms. Norton. But before they were simply sent out. So 
Federal funds were paid to send people. How far did you send 
them? I mean, just in the next available space, it could be 
halfway across the country?
    Mr. Lappin. Typically, these that were very short-term 
offenders, we tried to put it at Cumberland, the institutions 
in closest proximity of Washington, DC, given the fact we know 
that we are going to be putting them on a bus back to 
Washington, DC, within the next few weeks. So, again, it is 
noteworthy that there is now enough space at the jail and we 
have come to an agreement with the leadership there, and we 
appreciate that, such that we can have them serve their time at 
the jail in lieu of being transferred to one of our 
institutions. It is a really great way to do this.
    Ms. Norton. Yes.
    Now, I just want to make sure. There will be reimbursement 
now? These people were not, in fact, you say, retained; they 
were simply shipped out before? Because the District reported 
to us that some of these people were retained for some period 
at cost to D.C. taxpayers, although they were, the moment they 
are convicted, supposed to be in the custody of the Bureau of 
Prisons.
    Mr. Lappin. There is an MOU that lays out when the D.C. 
Department of Corrections pays and at which point the Bureau of 
Prisons or Federal Government takes over paying.
    Ms. Norton. Now, shouldn't the Bureau of Prisons pay from 
the moment, according to the Revitalization Act, that these 
felons are convicted and in the custody under Federal law now 
of the BOP?
    Mr. Lappin. We can provide to you the specifics. I believe 
the Federal Government begins to pay once the inmate is 
designated to a facility, but I don't have it here in front of 
me.
    Ms. Norton. Mr. Lappin, there used to be a long period or a 
fairly long period before designation occurred. It has been 
reported to us that period has been shortened. Is that so? And 
how long does it take to designate?
    Mr. Lappin. The last time I checked it was on average of 
about 25 to 27 days.
    Ms. Norton. Yes.
    Mr. Lappin. So you are correct. At one time it was 50, 60, 
70 days. I think we are down to 26 or 27 days. Actually, many 
of the offenders are designated in a much shorter timeframe. 
The more challenging ones are those that have significant 
mental health or medical concerns, and it takes us a little 
more time to gather that information we need to properly place 
them on the first designation. So we can provide for the record 
our current average period of amount of time it takes for a 
designation to occur and some breakdown on the more challenging 
cases.
    Ms. Norton. So when a prisoner serves 180 days or less, is 
that prisoner designated in the same way that a prisoner that 
is to serve 10 years is designated? Do you designate----
    Mr. Lappin. Yes, they would be designated----
    Ms. Norton [continuing]. Within these 20 days, or whatever.
    Mr. Lappin. That is correct.
    Ms. Norton. Yes.
    Mr. Lappin. So they would be designated to the jail, and we 
would assume financial responsibility for that.
    Ms. Norton. That is important, because this has been the 
subject of some confusion in the city.
    Now, you heard Ms. Bennett's testimony. I want to make sure 
I understand. She was a female in Florida and apparently that 
Tallahassee staff were unfamiliar with the D.C. Code and 
initially denied her services which were later, I think, 
rendered to her. Could you tell us whether or not, given the 
115 different facilities where D.C. inmates may now be housed, 
whether all are now familiar--what is it, 10 years?--with D.C. 
Code prisoners and whether we would have this situation to 
occur again.
    Mr. Lappin. Well, I am sorry that did occur. There are 
times when confusion did take place. However, as you now know, 
we have all of the female offenders at eight facilities. I am 
confident that our staff there are knowledgeable of the D.C. 
Code and, as a result of recent legislative changes, they have 
the same opportunities as Federal female offenders.
    So the one confusion was the eligibility for time off, for 
example, for drug treatment. They have always had the 
opportunity or should have to drug treatment. At one point they 
didn't have the legal authority to time off, but that is no 
longer the case, and that has clarified things and they are 
treated just like everyone else is treated in regard to drug 
treatment time off and things of that nature.
    Ms. Norton. I certainly congratulate you for that. The time 
off gives an extraordinary incentive for the inmate to 
straighten out his life while in jail, really preparing for 
reentry.
    I am going to go. I have additional questions, but I am 
certainly going to go to the ranking member, Mr. Bilbray, at 
this time.
    Mr. Bilbray. Thank you, Madam Chair.
    I absolutely agree with you. It is really kind of sad that 
we talk about things like substance abuse being a major social 
and cultural problem, and how do we expect to be able to 
control the general population when we can't even address the 
issue within a control population? That is kind of scary.
    We are not going to get into how it is getting in and back 
out, because I think that there is a lot we can do more among 
ourselves who are operating the facility on that issue. I don't 
think we look at ourselves or our employees enough critically. 
We always figure it was the inmates, visitors. It is somewhere. 
The inmates are going into it. I think we have to look at our 
own operation a little stronger on that.
    Staying away from controversial issues, do we test for 
literacy level when we take the ladies into custody, when they 
are introduced into the system?
    Mr. Lappin. Yes. Today when an inmate arrives they take an 
inmate skills test. That includes literacy assessment, 
vocational assessment. It addresses nine skill areas that the 
Bureau of Prisons has identified that we find many inmates 
lack, to include their ability to manage a mental illness to 
their ability to cope with medical ailments, what they do or 
don't do in their leisure time.
    So an assessment is completed and we are now making efforts 
to ensure that every one of the 115 prisons, or all of those 
that house individuals for a period of incarceration, have 
programs to address each of those skill deficits, and we are 
encouraging inmates to participate in programs to address those 
skill deficits, whether it is making better use of your leisure 
time or getting a GED or getting a vocational certificate. But 
every one of our facilities will have programs to address those 
skill deficiencies. It was all part of the Second Chance Act.
    Mr. Bilbray. We found with our testing, and it might have 
been because there is so much second generation immigrants in 
our operation, that it was a much bigger problem than we ever 
dreamed it was. And we are talking about the functionally 
illiterate problem. It is one thing to be able to function at a 
certain level, but how tough that was. In the D.C. population 
is that still a problem? I am just coming from my little corner 
of the world.
    Mr. Lappin. I don't have the specifics across the board. In 
my opinion, it is a problem throughout our population, whether 
they are from the United States or from other countries.
    Mr. Bilbray. Have we integrated into the system before they 
get over to Ashley having to address this, before they ever 
show up to her front door step? Do we have a system that 
integrates the inmates into not only the learning process, but 
Ashley training them to be in the training process, too?
    Because one of our great successes down in the southwest 
corner is we actually have inmates being trained in the 
literacy programs to be able to then train inmates as they come 
in and detainees while they are in the process. Do we integrate 
the detainees into the teaching and the training program, or is 
it totally kept separate? In other words, the trainees are 
always outsiders coming in?
    Mr. Lappin. I am not sure I understand the question.
    Mr. Bilbray. The question is: do we have a program that 
trains the inmates. I am trying to remember. I have a mental 
block. What do you call the inmates that are given special 
supervising responsibilities? Come on, guys. Everybody knows 
about it.
    Mr. Lappin. Trustees.
    Mr. Bilbray. Trustees. Do you have trustees that the 
trustees have the ability to become literacy teachers and 
actually participate in the program, or do we just bring people 
in and try to teach it from the outside?
    Mr. Lappin. We have a combination.
    Mr. Bilbray. Thank you.
    Mr. Lappin. I'm sorry I missed it there at first.
    Mr. Bilbray. That is OK. It has been a long weekend for me.
    Mr. Lappin. The majority of our education classes and 
vocational classes are taught by a Bureau of Prisons employee 
or a contractor. They may have students who have completed the 
course who assist them with tutoring and things of that nature.
    Mr. Bilbray. OK.
    Mr. Lappin. However, we have another program called ACT, 
Adult Continuing Education, that offers other opportunities to 
learn, and many of those classes are taught by trustees or 
inmates who have shown a proficiency in those areas. But the 
majority of our GED and vocational classes are taught by our 
teachers or contract teachers who we hire from a community 
college or elsewhere. They may have a group of trainees or 
inmates who assist them.
    Mr. Bilbray. OK.
    Mr. Lappin. So it is a combination of both.
    Mr. Bilbray. I mean, I am of the belief that the more you 
integrate the trustees into the process, the more it not only 
helps the inmates but also helps the trustee and really starts 
building that bridge into a productive life outside. Because 
they have gotten into the habit of taking on responsibility, 
being trusted with responsibility, the self-awareness and the 
self-esteem that comes with that.
    But also the fact that who knows to teach better than 
somebody who has been able to basically say I have walked that 
mile? I think that we under-estimate the potential for somebody 
who is in detention to learn how to teach. Frankly, I think it 
makes the best teachers in the long run. That is just from my 
personal experience on that.
    Ashley, do you have special emphasis for literacy programs? 
Do you have contacts with the literacy groups to be able to 
make these outreaches as people are coming out?
    Ms. McSwain. Yes, we do have relationships with literacy 
groups and a GED program, and we also go into the facilities 
and offer HIV and AIDS prevention training, where it is peer 
facilitated, so the inmates are taught prevention and HIV and 
AIDS awareness, and then they teach it to other inmates. So we 
facilitate that at Hazelton and at Alderson.
    Mr. Bilbray. Thank you very much.
    Thank you, Madam Chair.
    Ms. Bennett. And the halfway house.
    Ms. McSwain. And the halfway house.
    Ms. Norton. Mr. Davis.
    Mr. Davis. Thank you very much, Madam Chairman.
    Mr. Lappin, since we know that at the base of incarceration 
for many individuals is substance abuse, misuse, and, although 
there are programs, I am often, I guess, called by individuals 
who indicate that they can't get into a program, that there is 
not room in the program.
    So my question is: do we have enough facility in terms of 
substance abuse treatment, to accommodate the individuals who 
need it and are seeking it?
    Mr. Lappin. I assume you are asking me?
    Mr. Davis. Yes.
    Mr. Lappin. We do today. It is a great question. It was an 
area of enormous concern for us over the last 2 or 3 years. 
Soon after the law was passed that mandated that we provide 
drug treatment to any inmate who we determined needed drug 
treatment and volunteered for drug treatment, we were able to 
meet that requirement for all of the years until about 3 years 
ago when, in fact, our waiting lists were too long and we did 
not have adequate funding to hire enough treatment specialists 
or add enough programs to reduce the waiting list such that we 
would treat all of the inmates.
    This past year we have been able to do that again. We are 
now treating 100 percent of the inmates who we believe need 
treatment and volunteer for treatment. So how many is that? If 
you would like to know, about 52 percent of the inmates in 
Federal prison are in for a drug-related offense, and about 40 
percent of those we believe have a drug or alcohol addiction. 
Today, 92, 93 percent of those inmates are volunteering for 
treatment. That is noteworthy. About 7 percent are declining.
    Last year I think we put about 18,000 to 19,000 inmates 
through the 500-hour residential drug treatment program. They 
successfully complete it.
    So yes, sir, we have this past year again been able to hire 
enough people to treat all of those people who have requested 
treatment.
    Mr. Davis. Thank you very much.
    Maybe you can answer this question. During the health 
debate, the health reform debate, we ran into situations where 
there was a lot of discussion. I am not totally certain of what 
the answer was. When individuals are in halfway houses and it 
is getting close to time for them to be released, they have 
completed their sentences, who pays or who is responsible for 
their health care at this point? We have run into some 
situations where there was just a lack of clarity in terms of 
who pays or who is responsible for the health care at that 
point.
    Mr. Lappin. As long as they are an inmate of the Federal 
Bureau of Prisons, we are responsible for their care. So in 
that halfway house, and actually even while they are on home 
confinement, we have a responsibility there, and so we are 
paying for the health care of the individuals who are in the 
halfway house. Now, I am not sure if that is true in States, 
but it is in the Federal system.
    Mr. Davis. So if they end up going to a county facility, 
does that mean that the county facility can now bill the Bureau 
of Prisons for that care and they will be reimbursed?
    Mr. Lappin. That is a very good question. What we expect 
our halfway house contracts to include is an arrangement with a 
local health care provider. We don't want this to be a surprise 
issue, so part of the contract requires that they already have 
a contract with someone so that if the person becomes ill there 
are services available.
    Now, if the person is so ill that it cannot be provided, we 
will bring them back to the Bureau of Prisons and we will put 
them back--we have had this happen--put them back in one of our 
hospitals where we can provide that care until they are 
released. The transition occurs when that sentence has ended. 
The next day they have to be transferred to a family or social 
entity who can absorb that expense.
    Mr. Davis. Thank you very much. I am really delighted to 
know that we are able to provide the drug treatment for 
individuals now who need it. Thank you.
    Ms. Norton. Thank you particularly for your leadership on 
the Second Chance Act.
    Ms. Poteat, I believe in your testimony you indicated, and 
I don't have it before me, that women were now being treated in 
the drug treatment center here in the state-of-the-art drug 
treatment facility. Is that the case?
    Ms. Poteat. No, ma'am. What I said was this fall this is 
where we are going to now open a 15-bed unit at the RSC on the 
grounds of D.C. General Hospital, so they will be housed there.
    Ms. Norton. This is a matter of major concern. We heard 
testimony. I think Ms. LaVigne said that half of these, greater 
than half of these women who go to prison had a heroin habit 
before coming into prison. Many of these women, frankly, were 
led into such habits by the associations, particularly with 
males. Now, as I understand from our last hearing, there were 
no beds set aside for women; is that true?
    Ms. Poteat. No. There were beds at the RSAT program, which 
was----
    Ms. Norton. The what?
    Ms. Poteat. At the D.C. jail, and we were working 
collaboratively with them for the 18 women that----
    Ms. Norton. Wait a minute. Let me understand. Where were 
men treated?
    Ms. Poteat. That was at the RSC facility, and you are 
correct, there were no beds initially. Now we are going to 
phaseout a unit and place women in that center.
    Ms. Norton. This is very important testimony. And when did 
you say that is going to begin?
    Ms. Poteat. This fall.
    Ms. Norton. Did you call that a pilot program?
    Ms. Poteat. No. This will not be a pilot program. This will 
be a full stage program. We are in the process of moving out 
offenders off a unit now that are already there. We have to 
work very closely with the Bureau of Prisons for those folks 
that have been designated to the RSC program so that 
alternative arrangements will be made there.
    In addition, we have to amend our contract, our medical 
contract, because we need to provide additional services for 
women that will now be housed at the RSC and do some training 
for our staff.
    Ms. Norton. Thank you, Ms. poteat.
    Now, Ms. LaVigne, you indicted that distance may not be 
correlated or we may not have figures on correlation between 
distance and recidivism, but you indicated that there has been 
research correlating family contact and recidivism. Would you 
discuss that, please?
    Ms. LaVigne. What we found is a couple of things. One, 
people who have more contract with their family members are 
more likely to report that they have stronger levels of family 
support upon release. We have also found that people with 
higher levels of family support are less likely to engage in 
substance use after their release, and we know that those who 
refrain from substance use are less likely to return to prison.
    Ms. Norton. Mr. Lappin, what are the recidivism rates for 
D.C. prisoners, for men and for women?
    Mr. Lappin. I don't know that I have off-hand the specific 
recidivism rates. The average recidivism rates for Federal 
offenders, of which they are a part, is about 40 percent, 41 
percent. But I will check with our research staff to see if, in 
fact, we have specific recidivism rates for D.C. offenders. I 
am not sure that we do, but we will check, and if we do we will 
provide it for the record.
    Ms. Norton. I very much appreciate it, and I appreciate 
your keeping those figures, again because I was very pleased to 
note that you began your--I have it marked here--testimony in a 
way that I was very pleased to hear. You said on page 1 of your 
testimony, ``while the number of female D.C. Code offenders is 
quite small compared with the entire population, we remain 
mindful of our unique role as the State Department of 
Corrections for the District of Columbia.''
    That is very important it seems to me, in everything that 
we are discussing here, that yes, there is to be some important 
integration into the facility, but Congress was mindful that it 
was putting a very important challenge to you, that these are 
State prisoners with very different kinds of needs. Sometimes 
they are more serious felons than the kinds you have been 
accustomed to, and there are a number of other kinds of 
challenges and accommodations that are going to have to be made 
for this to succeed, so I appreciate that understanding.
    Ms. McSwain, what caught my eye, among many things in your 
testimony, was on page 10 where you say some inmates are placed 
in home detention for a brief period at the end of their prison 
terms.
    Ms. McSwain. Yes.
    Ms. Norton. They serve a portion of their sentences at home 
under strict schedules, curfew requirements, telephonic 
monitoring, and sometimes electronic monitoring. Five D.C. Code 
offenders are on home detention. Why aren't there more? And 
would you tell us something about home detention? Maybe you and 
Mr. Lappin can enlighten us on home detention.
    Mr. Lappin. Let me make a run at this.
    Ms. McSwain. OK.
    Mr. Lappin. Inmates are eligible to serve a portion of 
their sentence on home detention. I believe it is up to 10 
percent. We are using this----
    Ms. Norton. I'm sorry? Up to 10 percent?
    Mr. Lappin. Of their sentence.
    Ms. Norton. Can be served on home detention?
    Mr. Lappin. Yes. And we are using this more widely. When 
either inmates who we identify in advance of transfer from 
prison to the community who we believe have the skills and the 
abilities and the wherewithal, they have some family support, 
we believe they have the skills to acquire a job.
    We, in fact, are transferring some directly from prison to 
home detention in lieu of putting them in a halfway house. The 
majority of them are going to the halfway house for a period of 
time to get established, reaffirm our belief that they could be 
successful on home detention, and then we transfer them to home 
detention.
    We are doing this for a couple of reasons. One, we want to 
free up those halfway house beds for the most needy inmates we 
have, those that don't have the family support, those that 
don't have necessarily the skills we would like them to have to 
acquire the jobs. They need more structure, more direction than 
some who already have those skills and have family support.
    So we are trying to better utilize the beds that we have, 
and in doing so we are trying to reserve those beds in the 
halfway house for the individuals who have the most critical 
need, been incarcerated longer, lack family support, don't 
necessarily have the skills that we would like them to have to 
acquire jobs.
    We have that wherewithal within this community, and I think 
that is noteworthy, Congresswoman. I mean, many communities 
resist accepting the returning offenders and we can't even get 
halfway houses. Here, we are fortunate to have Hope Village and 
Fairview and an organization like Our Place. We need more of 
them--I applaud their work--such that when that transition 
occurs there is support in the community from family, friends, 
or social organizations. Those we find are going to be far more 
successful offenders than those who don't have those kinds of 
services.
    Ms. Norton. Let me understand. How many women are in the 
halfway house at the moment, at Fairview?
    Mr. Lappin. There are----
    Ms. Bennett. About 60 or better.
    Ms. Norton. Ms. Bennett knows all so well. All right. 
Sixty. Now, there are only five D.C. Code offenders on home 
detention. That seems like a quite small number, especially 
because women have normally not been convicted for violent 
offenses. Why is that number so small, especially given your 
over-crowding, the need for the space at Fairview and the like? 
Only have one place in D.C. for women, so you would think there 
might be more.
    Mr. Lappin. My numbers reflect that right now we have 24 at 
Fairview. There are three on home detention. Without a doubt, 
when we compare the female D.C. Code offenders to our other 
female Federal offenders, they have many more challenges in the 
way of support. Many of them are homeless. We can't put them on 
home detention unless we are satisfied--I am saying this is the 
case, but without a doubt bigger challenge for us, because they 
sometimes don't have that family support or structure that we 
believe is necessary.
    Again, I would have to go back--and I can certainly do 
that--and look at the 21 that are there to see whether or not 
we are overlooking somebody that could go, but the halfway 
house has to have confidence, as do we, that if we put them out 
there in the community they are going to be in a situation that 
is supportive and nurturing of that transition. If we are 
unsure, we leave them in the halfway house.
    Ms. Norton. That certainly makes sense, Mr. Lappin.
    Do you, Ms. McSwain, supervise the women on home detention?
    Ms. McSwain. No.
    Ms. Norton. Who does?
    Mr. Lappin. That would be the staff at Fairview, in this 
case. They are not here.
    Ms. Norton. Oh, Our Place.
    Mr. Lappin. It is a support organization for both Fairview 
and the Bureau of Prisons.
    Ms. Norton. We had Fairview here at a prior hearing.
    Mr. Lappin. Yes.
    Ms. Norton. Ms. Day, you say in your testimony, ``I am a 
smart and intelligent individual.'' I must say, in your 
testimony you certainly demonstrated that.
    Ms. Day. Thank you.
    Ms. Norton. I hope that the initial nervousness was 
overcome, I think, by the very intelligence you described.
    Now, you say in your testimony, though, ``To some degree I 
believe that being under D.C. Code was better than being a 
Federal inmate.'' What do you mean?
    Ms. Day. Well, when I got to Hazelton there were a lot, and 
I think because it was a new facility. They put a whole lot of 
programs in place, and they didn't differentiate whether you 
were a Federal prisoner or a D.C. Code prisoner. Everything was 
open to everything.
    Ms. Norton. You were a D.C. Code?
    Ms. Day. Yes, I am a D.C. Code prisoner, but everything was 
open to us. The only thing that was not open to me was the drug 
program, because I didn't have the 24 months. By the time I got 
to the Feds, I only had 14 months left.
    Ms. Norton. So what is the difference here?
    Ms. Day. The difference is that a lot of the prisoners that 
I was incarcerated with that were not D.C. Code prisoners had 
longer sentences. They were shipped way, way away from home. 
They were not eligible for some of the programs because of what 
their charges was. They have a program at Hazelton where the 
inmates actually watch other inmates that are on suicide watch. 
I was able to do that. Some of the other prisoners weren't able 
to do that.
    Ms. Norton. But were you able to do that only because you 
were a D.C. Code?
    Ms. Day. No. I don't think so. I think it was because I 
expressed an interest. They were shipping ladies out left and 
right. I stayed at home. For whatever reason, I stayed close to 
home.
    Ms. Norton. So you benefited by staying----
    Ms. Day. Yes, I did.
    Ms. Norton [continuing]. Close to home?
    Ms. Day. I actually did benefit by staying close to home. I 
have always had real good family support. The only reason why I 
didn't have visitors on a regular basis is because my Mom is 
disabled, but I was able to call home every day. I e-mailed 
home every day. And when I came home, my family was at the 
halfway house waiting on me.
    Ms. Norton. Now, you have been in prison on more than one 
occasion?
    Ms. Day. No.
    Ms. Norton. No? Just once?
    Ms. Day. I have only been in prison once.
    Ms. Norton. Just once?
    Ms. Day. Only been in prison once. I have a lot of charges. 
I have a lot of convictions.
    Ms. Norton. That is a difference. I see.
    Ms. Day. Yes. I do. I have a lot of convictions. But I have 
only been in prison once.
    Ms. Norton. Those convictions came pursuant to this 
incarceration?
    Ms. Day. Yes. And all of my convictions are a direct 
result, I have a 30-year drug history. I have a sporadic drug 
history, and when I am not using I do exactly what I am 
supposed to do. I maintain employment. I take care of my kids. 
I become a responsible member of society.
    Ms. Norton. What freed you from the drug habit?
    Ms. Day. You know what? I don't know. I don't know. I guess 
I am tired. I honestly believe, because I have been in several 
different drug programs, unless you are tired, drug program 
ain't going to work anyway. If you get a year off or you get 
twenty years off, if you ain't tired it ain't going to work. 
And I guess that I was tired.
    I got a whole lot of support from my family. I burned 
bridges. I burned a lot of bridges, but my family didn't see 
that. And then I got support from Our Place that I got from no 
place else. You have agencies that go through the motions, and 
they do according to what their contract say that they do. I 
got an e-mail to everybody at Our Place. It don't matter what I 
am going through; all I need to do is e-mail somebody and I get 
an e-mail right back, I get a phone call right back. I got a 
mentor this time.
    I don't do NA and AA because something about listening to 
stories kicks up a feeling, so I don't do them. But my mentor 
is actually my sponsor, and we talk about everything.
    Ms. Norton. And you were incarcerated where again, please?
    Ms. Day. SFF Hazelton.
    Ms. Norton. Hazelton?
    Ms. Day. Hazelton. Yes. And we had a conversation when you 
came to Hazelton, and my question to you was actually why 
didn't people who had 24 months or less able for the drug 
program? I didn't care about the time off. I maxed out 
September the 15th anyway, whether I went to the drug program 
or not. But I think when a person with a drug history like 
mine, I used everything from a Bayer aspirin to you name it. I 
think I should have been entitled to the drug program because I 
asked for it.
    Ms. Norton. You say a certain number of months. Ms. Day 
says a certain number of months are involved in access to the 
drug program.
    Mr. Lappin. There are actually two different programs. 
There is a non-residential program, which does not require any 
minimum stay, and any inmate can participate in it. It is not 
nearly as intensive. It is more education based, and you don't 
live in a unit with the other inmates.
    The residential program, the $500 residential drug abuse 
program, requires a minimum of 24 months. That is to get you 
through almost a year-long, more intensive treatment, followed 
by a period of time in a halfway house where that treatment 
continues, and then on to release. That is why there is a 
minimum requirement.
    Ms. Norton. I see. It is just more intense. You need the 
time----
    Mr. Lappin. Yes.
    Ms. Norton [continuing]. In order to complete the program.
    Ms. Bennett.
    Ms. Bennett. Yes, ma'am?
    Ms. Norton. You were incarcerated far from home?
    Ms. Bennett. Yes. Yes, ma'am.
    Ms. Norton. How many facilities?
    Ms. Bennett. Just straight to Coleman in Tampa, Florida.
    Ms. Norton. In Florida?
    Ms. Bennett. Yes. And that is where I did the majority of 
my time down before they made me eligible to go to Tallahassee 
for the drug program.
    Ms. Norton. And you did receive----
    Ms. Bennett. Yes, ma'am.
    Ms. Norton [continuing]. The intensive residential drug 
program?
    Ms. Bennett. Yes, ma'am, the 500. I successfully completed 
it.
    Ms. Norton. Do you believe it is that program that freed 
you from drugs?
    Ms. Bennett. No, ma'am, I surrendered myself when I went to 
prison, when I sat in a cell downtown, I knew that I was giving 
up. You know, everything that I used to do, I knew I couldn't 
do it any more, so I surrendered myself.
    Ms. Norton. Mr. Lappin, here is a D.C. resident. When were 
you incarcerated, Ms. Bennett?
    Ms. Bennett. May 2004.
    Ms. Norton. Who was sent to Florida. Are there any women 
like Ms. Bennett that far away from home? Now, you heard what 
Ms. Day said, just being this close to home apparently was 
instrumental in her rehabilitation, so that now she is a tax 
preparer. Are there any women outside of the facilities that 
are no more than 500 miles from the District of Columbia?
    Mr. Lappin. There are. There are 11. I looked at all 11 of 
those. Actually, there are 36 if you include the 25 that are at 
Carswell. So there are 25 women outside the 500-mile distance 
who are at Carswell, probably for medical care or because they 
volunteered to participate in the life connections residential 
program, which is a residential-based volunteer program. Beyond 
that there are 11 who are outside the 500 miles. There are six 
at Tallahassee, there are four at Waseeka, and there is one in 
Dublin.
    Ms. Norton. Yes.
    Mr. Lappin. And the majority of them either have separatees 
at one of the other facilities or more that are in closer 
proximity as they can't be housed with someone, or, 
unfortunately, they have been disciplinary problems. One, in 
fact, has been moved 10 times. And so those are the 11 we have 
currently that are outside the 500-mile, besides the 25 that 
are at Carswell.
    Ms. Norton. Well, it looks like, at least within the 
constraints that you have, it looks like the BOP is making an 
effort. Could I ask that you make a further effort so that no 
D.C. woman who did not have special issues would be outside of 
the 500 mile or 250 mile?
    Mr. Lappin. We will certainly make the effort. As I have 
shared with you before, it is typically medical----
    Ms. Norton. We understand.
    Mr. Lappin [continuing]. Or they have many separatees who 
are incarcerated, so they can't be housed----
    Ms. Norton. Well, these 11, are all of these women in those 
special categories?
    Mr. Lappin. I believe all 11 of these are. I will check to 
make sure, but I think all 11 of them fall into one of those 
categories, either health care, separatees, or discipline.
    Ms. Norton. Well, if these women were flagged so that only 
those, and perhaps they have been if you say all 11 fall into 
these special categories. Then, of course, we would be getting 
somewhere.
    As you know, Mr. Lappin, while it would take a further 
effort, it does seem to me, given the number of facilities that 
the BOP has, that a facility could be converted to the District 
of Columbia where men and women could, indeed, be placed. I 
recognize the difficulty, but other than the administrative 
difficulties and the issues involved in such a conversion, 
would you regard that as at least something of a possibility?
    Mr. Lappin. We can consider that, although, as I have said 
before, I believe that it would be less safe than what we have 
today.
    Ms. Norton. Less safe?
    Mr. Lappin. Less safe.
    Ms. Norton. Why would it be less safe, Mr. Lappin?
    Mr. Lappin. I won't say so much so for the women, but more 
so for the men in that we, again, believe that facilities that 
are balanced, both racially and geographically, are safer than 
facilities that are----
    Ms. Norton. Mr. Lappin, 50 percent, as Mr. Davis indicated, 
of felons are African American men. I mean, I understand that 
there have been court suits and we want to make sure we are not 
segregating people, but of the values, penology values, the 
notion that--I suppose I would have to ask you. I can 
understand the notion of safe, but, Mr. Lappin, these are State 
felons.
    The Congress regarded BOP as capable of handling State 
felons, so the notion that it would be more difficult to have 
people who are more likely to be convicted of murder and armed 
robbery, yes, it would be something special that perhaps you 
would have to conform to, but compared to being in 115 
facilities scattered throughout the planet, as far as they are 
concerned, do you think the BOP is incapable of handling 
violent State prisoners within a facility if they were in the 
same facility?
    Mr. Lappin. Many of our inmates are violent offenders----
    Ms. Norton. You have some notorious----
    Mr. Lappin. Absolutely.
    Ms. Norton [continuing]. Drug offenders who have shot up 
the world. You have the worst bank robbers in the United 
States. Now, you are able as a Federal facility to spread them 
out, and it is a Federal facility. Excuse me, they have been 
convicted of a Federal crime, and so they are not entitled to 
be treated, it seems to me, as D.C. residents are, because they 
are Federal felons. Once you are a Federal felon, those are the 
rules.
    The rules, however, have to take into account what it means 
to be a State felon who, unlike a State felon in Maryland or 
Virginia, could at least get to see a relative or a minister 
every once in a while, and to be a State felon in Florida, and 
then to be expected to come home and do right and be right. 
That is the kind of accommodation that, if one is thinking 
about this with fresh eyes, one has to at least begin to 
contemplate.
    Mr. Lappin. Reality is though, Congresswoman, that all of 
the offenders we have who are U.S. citizens are residents of a 
State that they are going to return to, so they have the same 
reentry challenges as the D.C. offenders have. So I----
    Ms. Norton. Congress has made----
    Mr. Lappin. I struggle----
    Ms. Norton. Congress has made a judgment that when you have 
a Federal rap you are going wherever we send you. Congress has 
made a judgment that when you are a D.C. felon we are going to 
try to bear in mind you are a State felon and we are housing 
you in Federal facilities only because the District can't house 
you any longer. That is the only difference here. So I think it 
is very, very dangerous to simply equate somebody who has been 
convicted of a Federal felony with the State prisoners that you 
are charged with.
    Mr. Lappin. Let me just finish the response. Although they 
are from the District, I see them with similarities as far as 
reentry needs, but beyond that, in the day-to-day operations of 
running a prison, we have the benefit in the Federal system, 
unlike States, to be able to distribute this population such 
that we believe it creates a safer environment. Can we run a 
facility with inmates from one location? We could. I am just 
saying to you that I believe, as do our other managers and 
administrators, that it would not be run as safely as what we 
run today.
    Ms. Norton. Accepted. So the two values involved here are 
the specific pains and steps that the BOP administratively 
would have to take if these prisons were housed together versus 
the difficulty of reentry and the recidivism and the other 
issues that attend it when these people are scattered all over 
the country. One has to put those together and then decide 
which is the prime value: safety of residents in the District 
of Columbia who these felons will affect their own possibility 
of successful reentry, or the administrative difficulties the 
BOP has in housing a more violent set of prisoners. Those are 
the two values, Mr. Lappin.
    Mr. Lappin. I think the one that takes precedent is the 
safety in the prison.
    Ms. Norton. And you say you can----
    Mr. Lappin. If we can't run it safely----
    Ms. Norton. Can you maintain a safe prison of D.C. felons 
housed together, or not? Are you capable of doing it or not?
    Mr. Lappin. Not as safely as we do----
    Ms. Norton. As safely. Yes, you know, I can tell you it can 
be even more safe if you put them all in confinement by 
themselves so that nobody--you know, it would be real safe for 
everybody if you can never see the day of light until they get 
out. In life we have to make judgments. There is no perfect 
world.
    We do know, however, that if you are in Alabama or Florida 
or North Dakota and you have not seen a soul for 10 or 20 
years, that it is going to be very difficult for you to cross 
the District line and be a law-abiding citizen and fit in just 
like everybody else, Mr. Lappin. That is a value that you have 
to at least consider when deciding whether or not the present 
system accommodates sufficiently D.C. residents who are housed 
there.
    All I am asking you to do is consider it. I want your mind 
to be open, sir. We didn't put D.C. residents in a Federal 
prison just to fit them into some slots.
    Mr. Lappin. We will certainly consider it.
    Ms. Norton. Thank you, Mr. Lappin.
    Mr. Davis.
    Mr. Davis. Thank you very much, Madam Chairman.
    Let me just ask you, Ms. Day and Ms. Bennett, if each one 
of you would respond, What would you say has been most helpful 
to you in your effort to successfully reenter as a regular 
citizen?
    Ms. Bennett. As doing what I am supposed to as far as doing 
what I need to do to get back into society, and that is staying 
away out of trouble and doing what I need to do to move 
forward.
    Mr. Davis. That is what you have determined----
    Ms. Bennett. Yes.
    Ms. Day [continuing]. And what you have done. Is there 
anything that any program or the system, as we call it, has 
been helpful or any external force?
    Ms. Bennett. Especially Our Place and Federal City and the 
CHIPS recovery treatment program that I just graduated for has 
kept me on the right track, so I'm like where I'm at in my 
recovery is just moving forward.
    Mr. Davis. So you are saying the program has been helpful--
--
    Ms. Bennett. Yes, sir.
    Mr. Davis [continuing]. In terms of helping the way you 
think----
    Ms. Bennett. Yes.
    Mr. Davis [continuing]. And the way you think about life 
and doing things?
    Ms. Bennett. In general, yes.
    Mr. Davis. And that has been beneficial to you?
    Ms. Bennett. Yes, sir.
    Mr. Davis. Ms. Day.
    Ms. Day. First I have to say that I made a decision. I made 
the ultimate decision that I just didn't want to, whether it is 
safe or not in the BOP, I didn't want to be there. So when I 
came home, like I said before, I am the kind of person that 
will put you to the test. If you tell me that these are the 
services that you are going to offer for me and this is the 
help that you are going to give me, then I am going to put you 
to the test.
    And Our Place was really, really instrumental in helping me 
stick to my decision, because I had some rough times. I did. Of 
course I told you my Mom is disabled. She has been disabled for 
20 years. My daughter just kind of threw grandchildren in my 
lap. It was, ``you need to do, you are supposed to do.'' And I 
stayed at Our Place complaining. I got a mental place. I 
complained to all of my case managers from DOES.
    Our Place helped me with getting my domestic violence 
counselor. My significant other tried to kill me. As a direct 
result, he stabbed me. I took all of that to Our Place and I 
threw it in their lap. They said they was going to help me with 
it, so I gave it to them. And they did. And they did. They have 
not failed me yet.
    I know that there are other organizations out there that 
provide support for individuals, but when you have a person 
like me--and, again, I am a very intelligent person. I am 
actually working on my degree. I got all the support I needed 
from Our Place. If I e-mailed them a piece of paper and asked 
them, ``can you read this and give me some suggestions?'' I get 
it right back. I don't do nothing without going through them 
first, because they have been so instrumental in helping me put 
the pieces together, where I would have gave up a long time 
ago. Our Place didn't let me.
    Mr. Davis. So you are saying essentially the same thing, 
that things helped you with the way you think about yourself 
and about life and what you will do, notwithstanding what any 
programs or anybody else is saying?
    Ms. Day. Yes.
    Mr. Davis. That ultimately you have to decide that you are 
going to do certain things?
    Ms. Day. Yes.
    Mr. Davis. And, of course, I think programs can help people 
to do that.
    Ms. Day. Yes.
    Mr. Davis. I mean, it sometimes changes the way that they 
think, and once they reach the threshold now they are OK 
because they are going to do what is necessary to be more in 
compliance with societal expectations.
    Ms. Day. Yes.
    Mr. Davis. Thank you both, and thank all of the witnesses. 
Madam Chairman, thank you.
    I yield back.
    Ms. Norton. Thank you very much, Mr. Davis.
    Ms. McSwain, I think it is a tribute to you and Our Place 
that Ms. Day would say what she said.
    Ms. McSwain. Yes.
    Ms. Norton. You say you can do it? Here. Here are a bunch 
of problems. And she said you never failed her. This is very 
heartening to hear.
    Ms. McSwain. Yes.
    Ms. Norton. It is the kind of personal testimony that does 
indicate that programs that are as deeply committed as yours 
can have an affect.
    Ms. McSwain. Yes, thank you. We see quite a few Ms. Days 
come through the doors of Our Place.
    Ms. Norton. Do you receive Federal funding?
    Ms. McSwain. We don't. We receive funding from the Justice 
Grants Administration, which come through the D.C. Government, 
but we don't receive funding directly from the Federal 
Government. We do not. We could use it though. [Laughter and 
applause.]
    Ms. Norton. OK. Mr. Lappin, I was very interested in your 
testimony beginning at page 2 where you talk about the 
crowding: 93 percent of our high-security cells, 100 percent of 
all medium security are double bunked?
    Mr. Lappin. That is right.
    Ms. Norton. Medium security, 15 percent triple bunked. Now, 
you are going to have some relief because these short-term D.C. 
felons are going to be here, and I congratulated and commended 
you for the MOU in my own opening remarks. The next step would 
seem to be, since all felons come back home, to do the 90-day 
program with as many of them as possible who are not short-term 
felons but who could get access to the long and very excellent 
list of reentry services if they, too, assuming space could be 
brought back. You have to pay for them to come back, anyway. It 
would relieve overcrowding.
    Is there any reason not to begin also, if space is 
available, to move people like Ms. Bennett from Florida 90 days 
before the expiration of her sentence to the D.C. jail to give 
her access to reentry programs there?
    Mr. Lappin. We will certainly look at that. Our first 
objective is to address the short-term offenders. We have to 
accept the fact there is a limit on how many beds are 
available. I think within a few months we will be able to 
determine where we stand with the short-term offenders, have 
everything in place, work out any concerns, and at that point 
we can consider that we would.
    There will be additional expense. We can't deny that. But 
we will certainly look at that.
    Ms. Norton. What is the additional expense?
    Mr. Lappin. It is cheaper for us to transfer them back to 
D.C. to a halfway house via public transportation.
    Ms. Norton. Couldn't they still go to a halfway house?
    Mr. Lappin. Absolutely. They may still. We continue to do 
that.
    Ms. Norton. Via public transportation meaning how would 
they come back?
    Mr. Lappin. They normally come back on a Greyhound bus or 
something.
    Ms. Norton. I see. Because they are released?
    Mr. Lappin. Yes. We buy them a ticket, they come back.
    Ms. Norton. I see.
    Mr. Lappin. They arrive at the halfway house. Whereas the 
90-day transfer would require the Federal Government to move 
them.
    Ms. Norton. I see.
    Mr. Lappin. It is more expensive.
    Ms. Norton. Yes.
    Mr. Lappin. It will also cost more money to house them at 
the jail, so there are additional costs.
    Ms. Norton. No. You relieve some of the money cost. That is 
relieved of some of what it costs you in food and lodging, not 
to mention this horrific, horrific crowding you talk about.
    Mr. Lappin. It is actually cheaper for us to keep them in 
one of our facilities than to house them at the jail.
    Ms. Norton. Triple bunked? Triple bunked? Double bunked? 
You know, it is better for us, so let's go us first. Is that 
safer, double bunking and triple bunking people?
    Mr. Lappin. I said that, space available, we would look 
into it.
    Ms. Norton. All right, sir. I am only asking for an open 
mind here. Penology is a developing science based on 
circumstances. You have an enormous challenge, and that 
challenge is: can BOP in fact successfully house State 
prisoners? Or will this statute be a failure? You are doing 
well, but challenges are becoming more and more clear the 
longer we have people at the Bureau of Prisons.
    On May 5th we asked you, because we are so concerned, about 
our men and women being spread across the country. We asked you 
about placing videoconferencing equipment at every BOP facility 
that houses D.C. Code felons, so at least you can say, Hi out 
there D.C. I don't know what it is like here in Wyoming, but I 
am glad to see a face there that I know.
    You can see this bothers me tremendously, because I think 
you are dumping some problems in our lap, Mr. Lappin. When you 
give them a bus ticket, send them home homeless, there is not 
enough room for them in a halfway house, who do you think is 
going to pick up that slack?
    So I am trying to deal with this the best way I can, in 
keeping with your rules, so let's start with videoconferencing. 
Any progress on investigating whether you could do more 
videoconference? We have it at Rivers. I don't think we have it 
anywhere else. If we do, I would be glad to hear about it.
    Mr. Lappin. We do not, and we are exploring what technology 
is available that would allow us to connect. It is going to be 
complicated a little bit because this has to go through the 
Justice network program, so there are security requirements 
that are going to be burdensome, but we are certainly exploring 
that, not only for people from Washington, DC, but other 
offenders who are far from their homes, as well.
    Ms. Norton. I am glad to hear it, because I think, given 
the fact that you have Federal prisoners who are in the same 
position as D.C. prisoners, although incarcerated under 
different code, under different circumstances. Anything that 
helps people go home and reintegrate into civil society would 
be, I think, welcome.
    Mr. Lappin. Well, I believe in years to come this will be 
used widely. But, again, there are some limitations on 
technology and we have to make sure we abide by the security 
limitations.
    Ms. Norton. Let's do this, Mr. Lappin, because I asked you 
about this on May 5th. We are 3 months later. Thirty days I 
would like you to submit to the chairman of this subcommittee 
what progress you are making on videoconferencing and in what 
facilities. Thirty days.
    Mr. Lappin. Sure.
    Ms. Norton. Just progress. We don't say have in place; we 
just want to know progress.
    We were concerned that the Correction Information Council, 
that is a local D.C. Council that was set up by the District so 
that the District could go into BOP facilities, was, in fact, 
not functioning. I think they gave up even appointing people. 
You were going to see what was necessary so the members of this 
Council could visit BOP facilities in the normal course. What 
progress has been made in that regard?
    Mr. Lappin. I am not sure that anyone has reappointed 
members. It was my understanding that someone was going to 
alert them that we are willing to move forward. We have a 
program statement or a memorandum of understanding in draft 
form.
    Ms. Norton. Well, it is true that we would need a 
memorandum of understanding between the CIC or the District 
government and the BOP. Could you initiate that memorandum of 
understanding so that we could proceed here?
    I would ask CSOSA, Ms. Poteat, if you would work with Mr. 
Lappin and the appropriate D.C. officials to see if something 
of the kind was possible. In that case, at least there could be 
some officials from the District who could report back and 
forth.
    There is lots good to report. I have visited your 
facilities. But our folks just don't have any idea about them.
    Mr. Lappin. We will reach out to the District government 
and see if we can arrange a meeting to see where we are going 
to go. We have the MOU. We just need some people appointed. We 
will reach out to them and respond back to you.
    Ms. Norton. Thank you very much, Mr. Lappin.
    You indicate on page 7 of your testimony that you need new 
legislation to expand the Federal Prison Industries. What did 
you mean by that?
    Mr. Lappin. As you know, Federal Prison Industry was 
created back in 1933, and it gave certain statutes and mandates 
for the operation of that. Over the course of years, some of 
the requirements have been watered down by other legislation, 
the mandatory source requirement being one, that has resulted 
in fewer opportunities for us to employ inmates in prison 
factories.
    Ms. Norton. So this is statutory?
    Mr. Lappin. This is statutory.
    Ms. Norton. Yes.
    Mr. Lappin. I tell you, this can get complex.
    Ms. Norton. Yes.
    Mr. Lappin. We would love to meet with you and/or your 
staff, address the details, rather than burdening the entire 
group here with this. It has been ongoing for 15 or 20 years. 
We believe we run safer prisons, because we have inmates 
productively employed and we know, based on our research, that 
those who work in Prison Industry are less likely to recidivate 
and more likely to get a job.
    On the other hand, some are critical of the fact they 
believe we may be taking jobs away from law-abiding citizens, 
businesses. We don't want to do that, either.
    Ms. Norton. Yes.
    Mr. Lappin. So we kind of need to figure out how we can 
move forward and provide the jobs without having as much of an 
impact on other citizens' businesses. But I would offer you the 
opportunity to sit down and chat about Prison Industry.
    Ms. Norton. I would very much like to do that, because I 
see two legitimate concerns here.
    Mr. Lappin. Absolutely.
    Ms. Norton. Very legitimate concerns, especially in this 
kind of job climate, if people feel you can go to jail and get 
a job.
    Mr. Lappin. Absolutely.
    Ms. Norton. There might be people lining up to get into the 
BOP these days. There are five people for every job available 
out here, and so there is legitimate concern. On the other 
hand, if there are some things you do, and I know I have some 
idea from visits, some of those things, then I would very much 
like to meet with the appropriate staff. Some of this may not 
require statutory change.
    Mr. Lappin. We would love to work with you. I mean, they 
learn work skills, not necessarily vocational. They learn to 
come to work on time, they learn to work with peers, they learn 
to work with a supervisor. These are skills that many of them 
lack because they have not been in that type of environment 
prior to incarceration. So, again, we would love to work with 
you on this issue.
    Ms. Norton. Now, I have one final question. As I 
understand, Ms. McSwain, you work in the prisons, as well?
    Ms. McSwain. Yes. We go into the facilities and implement 
programming, so we just----
    Ms. Norton. That is what I would like to discuss finally, 
the relationship you have with effective reentry organizations 
like Our Place. How does that work, and how can we get more of 
it?
    Mr. Lappin. Would you like me to start?
    Ms. McSwain. Sure.
    Mr. Lappin. We think this is a great opportunity, and in 
fact in our opinion this kind of sets the example of what could 
occur if there were more willing participants like Our Place 
and correctional organizations that are willing to allow this 
to occur, and so the more contact that a local entity, support 
group, can have with the inmate during reentry, I believe the 
more successful we are going to be.
    Ms. Norton. Mr. Lappin, what I am trying to find out is the 
mechanics. How did Our Place get into the prisons?
    Ms. McSwain. Well, the founder was working in the prison 
doing programming, and she built Our Place to respond to the 
needs of the women reentering. Through that process, she began 
to build relationships with the prison officials, and during my 
term I have reached out to the programming directors within the 
prisons, talked about our work, and because they are very 
interested in the needs of female offenders they have invited 
our programs in.
    Ms. Norton. So what do you do?
    Ms. McSwain. So we go to FDC Philadelphia, Hazelton, 
Alderson. We offer employment programming, so we talk about how 
do you talk about your employment history, your incarceration 
history, to an employer. We have an HIV and AIDS awareness 
program, where it is a program called SISTA where we teach the 
inmates about HIV and AIDS awareness and prevention. We train 
them. They train other inmates. We offer legal----
    Ms. Norton. Are these D.C. inmates or general?
    Ms. McSwain. All D.C. inmates.
    Ms. Norton. Are there other places, other programs like Our 
Place in Federal prisons?
    Mr. Lappin. There is another organization called Hope House 
operated by Carol Fenley.
    Ms. Norton. I know her.
    Mr. Lappin. She actually facilitates weekend retreats or 
events where parents and the children of the incarcerated can 
go to institutions and spend 2 or 3 days interacting. So there 
are several other organizations. It is not widespread around 
the country. I see the most of it here in Washington, DC, which 
is encouraging. But, again, I don't know what is happening at 
every one of the local 115 prisons, but this is noteworthy 
work.
    Ms. McSwain. Also, our newest program was to bring case 
management into the facilities 4 months before a woman is 
released, and then also follow her 6 months after she is 
released. With that project, the prisons have been very open to 
allowing us to support the woman while she is still in custody, 
and that program is done at Hazelton and FDC Philadelphia and 
Fairview Correctional Treatment Facility.
    We have also built a relationship with CSOSA so that we can 
also continue to support the woman when she is released. So it 
requires a collaboration with all of the institutions that are 
touching the women before they are released and once they are 
released into the community, having Our Place provide some 
guidance and some coaching as they manage all of these various 
relationships.
    Ms. Norton. You do this work pursuant to grants from the 
D.C. government?
    Ms. McSwain. I have one grant from the D.C. government. It 
was a recent grant, and that has allowed us this pilot project. 
We don't have a lot of grants from the D.C. government.
    Ms. Norton. So is it private philanthropy?
    Ms. McSwain. A lot of foundation grants. We have the HIV 
and AIDS Administration--I guess that is D.C.--also funds our 
prevention program. But we are struggling for funding.
    Ms. Norton. It sounds to me as though you have multiplied 
your effect in quite extraordinary ways. You serve 1,324 women, 
634 were in custody.
    Ms. McSwain. Yes.
    Ms. Norton. And 241 at Fairview.
    Ms. McSwain. Yes.
    Ms. Norton. So most of the women you served were in 
custody?
    Ms. McSwain. Yes. We go into the facilities every single 
month. Every single month we go to Philadelphia. Every other 
month we go to Hazelton. Every single week we are either at 
Fairview or CTF.
    Ms. Norton. In light of the fact that even these facilities 
are not within walking distance or easily accessed, we need to 
know more about this in-prison work because it is reentry work.
    Ms. McSwain. Yes.
    Ms. Norton. Ms. Poteat, is CSOSA in prison?
    Ms. Poteat. We go to the Rivers Correctional Facility and 
we do resource day there, where we take a host of not only 
potential vendors or employers, we take mentors, we take the 
Department of Housing, medical services, and we start working 
with the offenders prior to their release.
    In my testimony I indicated now we will be working very 
closely with Our Place in doing the mentoring right now with 
Hazelton and FDC Philadelphia, and so we will do resource days 
with them, as well, in the future.
    Ms. Norton. Well, to tell you the honest-to-goodness truth, 
Ms. Poteat, I would like to see you have the kind of presence 
in institutions that apparently this small organization has. I 
mean, have you served 1,324 prisoners in the kind of way she is 
talking about, with HIV/AIDS and--here she says 634 were in 
custody, 241 were at Fairview, and the balance was in the 
community; 60 percent received legal counseling, 23 percent 
received birth certificates. What does that mean?
    Ms. McSwain. Meaning that when the women are released from 
custody and they are trying to get into a housing program, they 
need birth certificates.
    Ms. Norton. Their own birth certificates?
    Ms. McSwain. Yes.
    Ms. Norton. Twenty-one received funding for identification, 
and 17 percent received funding for police clearance. Are you 
doing that in prisons, in the Federal prisons, Ms. Poteat?
    Ms. Poteat. We help people get the Social Security cards 
and we help them get the non-driver's identification. We work 
with Department of Motor Vehicles.
    Ms. Norton. Once they get back here?
    Ms. Poteat. That is correct.
    Ms. Norton. Ms. Poteat, I would like to see a greater 
presence of CSOSA in prisons. To do that, you would probably 
need additional staff. Ms. McSwain I'm sure needed some, too. 
She's a whole lot smaller. This is something I would like to 
work with you, with the appropriators. Pending trying to deal 
more forthrightly with reentry, we have to do something about 
these 115 facilities.
    Now, I can't expect CSOSA to go across the country, but 
Rivers, for goodness sakes, that is only one facility, and it 
does seem to me that if we have a small organization like this 
which has put itself right in the prison, put itself there, 
that we ought to investigate giving CSOSA more of a presence so 
that your job isn't made doubly hard because you can't touch 
prisoners, most of them, can't have a touch with them until 
they get back home.
    She has some early and systematic contact, albeit it with 
far fewer, although I am telling you the numbers here are 
fairly impressive.
    We have to find ways to bridge this gap, and it means 
thinking more creatively than we have done. CSOSA does a fine 
job once people get back here, but you are already behind the 
eight ball. You can't affect facilities that are some distance 
away.
    But there is more than Rivers to affect. And there is more 
that we should be doing to push videoconferencing. It shouldn't 
be just me at hearings pressing this. Mr. Lappin is going to 
see what he can do, but the lack of communication between our 
people and home is clearly a big issue in this town, and we 
have to do better in finding a way to, in fact, incorporate 
everything we do to increasing that contact.
    Mr. Lappin.
    Mr. Lappin. Let me just clarify. I think that the 
opportunity for videoconferencing with CSOSA is much more 
viable and likely than videoconferencing for visiting. That is 
more complex.
    Ms. Norton. Say that again.
    Mr. Lappin. The videoconferencing with another Federal 
agency like CSOSA is very doable, which might facilitate some 
of that in lieu of travel.
    Ms. Norton. Certainly. That is how you have been doing it 
before, I think, anyway.
    Mr. Lappin. I want to clarify. The dilemma with 
videoconferencing is more so with trying to offer that to 
citizens to visit with their family who are in prison, so that 
is going to be a little more complex.
    Ms. Norton. But CSOSA should be the intermediary that 
facilitates that.
    Mr. Lappin. But I think the videoconferencing opportunities 
between us and CSOSA are much more an option that could put 
them into more of those facilities to have more direct contact 
with people, if that is amenable.
    Ms. Norton. That is excellent. You see, there is a marriage 
right there, Ms. Poteat.
    Ms. Poteat. Yes. And we have already started that marriage, 
as we have expanded that. That is correct.
    Ms. Norton. Thank you very much.
    I want to thank each and every one of these witnesses. 
There are six of you. Obviously, the officials get asked more 
and tougher questions, but I assure you that the testimony of 
each of you is very valuable to us.
    I do have a special word for Ms. Day and Ms. Bennett. You 
break down stereotypes when you agree to appear at a hearing 
like this. You enlighten us in ways most of us have no other 
way to discern. We just do not have enough contact. And yes, 
the whole world is judgmental when it doesn't have contact. It 
took guts to come here. You have plenty of guts, and I thank 
you for your guts.
    [Applause.]
    Ms. Bennett. It sure did.
    Ms. Day. Thank you.
    Ms. Norton. The hearing is adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
